IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 20-322
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.,
PETITIONERS
v.
ESTEBAN ALEMAN GONZALEZ, ET AL.
_______________
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_______________
MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX
_______________
Pursuant to Rule 26.8 of the Rules of this Court, the Acting
Solicitor General, on behalf of petitioners, respectfully seeks
leave to dispense with the requirement of a joint appendix in this
case.

The questions presented are questions of law:

(1) whether,

under 8 U.S.C. 1252(f )(1), the courts below had jurisdiction to
grant classwide injunctive relief; and (2) whether a noncitizen
detained under 8 U.S.C. 1231 is entitled by statute, after six
months of detention, to a bond hearing at which the government
must prove to an immigration judge that the noncitizen is a flight
risk or a danger to the community.

The opinions of the court of

2
appeals and the orders of the district courts are included in the
appendix to the petition for a writ of certiorari.

In our view,

no other portion of the record merits special attention such as
would warrant the preparation and expense of a joint appendix, and
preparation of a joint appendix would not materially assist the
Court’s consideration of the case.

We are authorized to state

that counsel for respondents agree that a joint appendix is not
necessary.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
OCTOBER 2021

